g„0°33

4

IN THE

SEP 0 2 2020

Supreme Court of the United Stat^^iiEoljgff

RICHARD J. KELLY and ETHEL J. KELLY.
Petitioners
v.
MARJORY MOTIAYTIS,
Respondent
On Petition For Writ Of Certiorari
To The Illinois Supreme Court

PETITION FOR WRIT OF CERTIORARI

Richard J. Kelly, Pro Se
Ethel J. Kelly, Pro Se
536 Powell Avenue
Waukegan, IL 60085
847-244-0844

QUESTIONS PRESENTED
Just laws and constitutional la ws are the foundation of our legal system.
We, the people, DEPEND on the United States Supreme Court for justice.
(1)
Whether 65 ILCS 5/11-13-15 is unconstitutionally vague in violation of the due
process clauses of the 14th and 5th Amendments of the United States Constitution?
(APPENDIX F)
Whether 65 ILCS 5/11-13-15 is unconstitutionally vague and is, therefore,
unconstitutional both on its face and as allied?
(2)
Whether 65 ILCS 5/11-13-15 violates the due process clauses of the 14th and 5th
Amendments of the United States Constitution? (APPENDIX F)
Whether 65 ILCS 5/11-13-15 violates the due process clause of the 14th and 5tk
Amendments of the United States Constitution and is, therefore, unconstitutional
both on its face and as applied?
(3)
.Whether 65 ILCS 5/11-13-15 violates the due process clause of the 14th and 5th
Amendment of the United States Constitution when it is necessary to refer to and
to utilize another statute in order to determine the “prohibited conduct”?
Whether 65 ILCS 5/11-13-15 is unconstitutionally vague when it is necessary to
refer to and to utilize
conduct?’and is, therefore,

another statute in order to determine the “prohibited
unconstitutional both on its face and as applied*!
in

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.

RELATED CASES

Trial Court
Motiaytis v. Kelly, No. 16 CH 912, 19tk Judicial Circuit, Lake County, Illinois.
Judgment entered, on March 26, 2018.

Appellate Court
Kelly v. Motiaytis, No. 2-18-0599, Illinois Appellate Court, Second District.
Judgment entered on September 17, 2019.

Illinois Supreme Court
Kelly v. Motiaytis, No. 125419, Illinois Supreme Court. Judgment entered on
April 7,2020.
iv

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED ..

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

10

CONCLUSION

21

INDEX OF APPENDICES
APPENDIX A

Decision of the State Trial Court

APPENDIX B

Decision of State Court of Appeals

APPENDIX C

Decision of the Illinois Supreme Court denying the Petitioners’
motion for leave to file a motion for reconsideration of the order
denying petition for leave to appeal on April 7, 2020.

APPENDIX D

The BOCA National Property Maintenance Code/1996

APPENDIX E

65 ILCS 5/11-13-15

APPENDIX F

14th Amendment to the United States Constitution
5th Amendment to the United States Constitution

APPENDIX G

Division 13 of the Illinois Municipal Code,
65 ILCS 5/1

APPENDIX H

Division 31 of the Illinois Municipal Code,
65 ILCS 5/1

APPENDIX I

Division 31.1 of the Illinois Municipal Code,
65 ILCS 5/1

v

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES

Cnrmally v. General Const. Co.. 269 U.S. 385 (1926).

12, 14

United States v. Harriss, 347 U. S. 612, 617 (1954).

12

United States v. National Dairy Corp.. 372 U.S. 29 (1963)

14

STATUTES AND RULES

65 ILCS 5/11-13-15 of the Illinois Municipal Code
Division 13, 31, 31.1 of the Illinois Municipal Code

APPENDIX E
APPENDIX G,H,I

ENCYCLOPEDIA

Page 8, 9, 11

16 Am. Jur. 2d, Sec. 178

vi

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.

OPINIONS BELOW

The trial court’s order was entered on March 26, 2018. (APPENDIX A)
The Summary Order of the Illinois Appellate Court, Second District, affirming the
trial court’s ruling is unpublished and was entered on September 17, 2019.
(APPENDIX B)
The Illinois Supreme Court denied the Petitioners’ motion for leave to file a
motion for reconsideration of the order denying petition for leave to appeal on April
7, 2020. That order is attached in (APPENDIX C)

1

JURISDICTION
The date on which the highest state court decided our case was April 7, 2020. A
copy of that decision appears at APPENDIX C.

The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

28 U.S.C. § 1257(a) reads as follows(a)
Final judgments or decrees rendered by the highest court of a State in which a
decision could be had, may be reviewed by the Supreme Court by writ of certiorari
where the validity of a treaty or statute of the United States is drawn in question or
where the validity of a statute of any State is drawn in question on the ground of its
being repugnant to the Constitution, treaties, or laws of the United States, or where
any title, right, privilege, or immunity is specially set up or claimed under the
Constitution or the treaties or statutes of, or any commission held or authority
exercised under, the United States.

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution, 5th Amendment
United States Constitution, 14th Amendment
65 ILCS 511-13-15

United States Constitution. Fifth Amendment
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except in
cases arising in the land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any person be subject
for the same offence to be twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of law; nor shall
private property be taken for public use, without just compensation.
United States Constitution. 14th Amendment
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the state
wherein they reside. No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction the
equal protection of the laws.
65 TLCS 5/11-13-15
(65 ILCS 5/11-13-15) (from Ch. 24, par. 11-13-15)
Sec. 11-13-15. In case any building or structure, including
fixtures, is constructed, reconstructed, altered, repaired,
converted, or maintained, or any building or structure, including
fixtures, or land, is used in violation of an ordinance or ordinances
adopted under Division 13, 31 or 31.1 of the Illinois Municipal
3

Code, or of any ordinance or other regulation made under the
authority conferred thereby, the proper local authorities of the
municipality, or any owner or tenant of real property, within 1200
feet in any direction of the property on which the building or
structure in question is located who shows that his property or
person will be substantially affected by the alleged violation, in
addition to other remedies, may institute any appropriate action
or proceeding (l) to prevent the unlawful construction,
reconstruction, alteration, repair, conversion, maintenance, or
use, (2) to prevent the occupancy of the building, structure, or
land, (3) to prevent any illegal act, conduct, business, or use in or
about the premises, or (4) to restrain, correct, or abate the
violation. When any such action is instituted by an owner or
tenant, notice of such action shall be served upon the municipality
at the time suit is begun, by serving a copy of the complaint on
the chief executive officer of the municipality, no such action may
be maintained until such notice has been given.
In any action or proceeding for a purpose mentioned in this
section, the court with jurisdiction of such action or proceeding
has the power and in its discretion may issue a restraining order,
or a preliminary injunction, as well as a permanent injunction,
upon such terms and under such conditions as will do justice and
above.
forth
set
enforce
the
purposes
If an owner or tenant files suit hereunder and the court finds
that the defendant has engaged in any of the foregoing prohibited
activities, then the court shall allow the plaintiff a reasonable
sum of money for the services of the plaintiffs attorney. This
allowance shall be a part of the costs of the litigation assessed
against the defendant, and may be recovered as such.
An owner or tenant need not prove any specific, special or
unique damages to himself or his property or any adverse effect
upon his property from the alleged violation in order to maintain
suit
under
the
foregoing
provisions.
a
(Source: P.A. 80-419.)
STATEMENT OF THE CASE

4

INTRODUCTION/BACKSTORY

It is undisputed that this case arose when the Plaintiff filed a lawsuit in the trial
court alleging that property maintenance violations existed on the Defendants’ real
property. The purpose of the statute, 65 ILCS 5/11-13-15, is that it allows private
landowners to institute property maintenance actions against homeowners.
(APPENDIX E) The Defendants contend that local property maintenance should
be the responsibility of municipalities not the State ofIllinois.

It is also undisputed that the Property Maintenance Code of the City of Waukegan
was adopted from the BOCA National Property Maintenance Code/1966.
(APPENDIX D)

It is also undisputed that the Waukegan property maintenance

code was used by the Plaintiff to identify the said violations.

65 ILCS 5/11-13-15 authorizes private individuals to enforce the Waukegan
property maintenance code (APPENDIX E), however, both the BOCA code and
the Waukegan Property Maintenance Code,

only authorizes code officials to

enforce the Property Maintenance Code of the City of Waukegan. (PM-105.1)
(APPENDIX D)

PM-105.1 reads a follows:

5

PM-105.1

General: The code official shall enforce all of the provisions of the

code. (APPENDIX D)

It is undisputed that the Plaintiff is not a code official.

Code official is defined in PM-202.0 as the official who is charged with the
administration and enforcement of this code, or any duly authorized
representative. (Appendix D)

65 ILCS 5/11-13-15 is both unconstitutional and unnecessary.

The BOCA

National Property Maintenance Code/1996 is the model building regulations for
the protection of public health, safety and welfare. Many cities adopt this model
code instead of attempting to “reinvent the wheel.” It is undisputed that the City
of Waukegan adopted this model property maintenance code.

This model code has proved to be adequate for the protection of public health,
safety and welfare for the City of Waukegan. No evidence has been introduced to
the contrary.

The Defendants’ due process rights guaranteed by the 14th and 5th Amendments to
the United States Constitution have been violated by the Plaintiff. By Summary

6

Judgment, the Plaintiff prevailed simply by introducing evidence that shows that
the Defendants’ property had property maintenance violations while not really
considering or addressing the Defendants’ unconstitutional defense. (APPENDIX
A)

65 ILCS 5/11-13-15 reads in pertinent part:

In any action or proceeding for a purpose mentioned in this section, the court
with jurisdiction of such action or proceeding has the power and in its
discretion may issue a restraining order, or a preliminary injunction, as well
as a permanent injunction, upon such terms and under such conditions as
will do justice and enforce the purposes set forth above.
If an owner or tenant files suit hereunder and the court finds that the
defendant has engaged in any of the foregoing prohibited activities, then the
court shall allow the plaintiff a reasonable sum of money for the services of
the plaintiffs attorney. This allowance shall be a part of the costs of the
litigation assessed against the defendant, and may be recovered as such.
An owner or tenant need not prove any specific, special or unique damages
to himself or his property or any adverse effect upon his property from the
alleged violation in order to maintain a suit under the foregoing provisions.

Local solutions should be used to solve local problems. Routine property
maintenance should be handled by the City of Waukegan, not the State of
Illinois.
7

RELEVANT LAW
An unconstitutional law is void.

(16 Am. Jur. 2d, Sec. 178)

The Defendants

contend that their strongest argument is their unconstitutional questions'

QUESTIONS PRESENTED
(1)
Whether 65 ILCS 5/11-13-15 is unconstitutionally vague in violation of the due
process clauses of the 14th and 5th Amendments of the United States Constitution?
Whether 65 ILCS 5/11-13-15 is unconstitutionally vague and is, therefore,
unconstitutional both on its face and as applied?
(2)

Whether 65 ILCS 5/11-13-15 violates the due process clauses of the 14th and 5th
Amendments of the United States Constitution?
Whether 65 ILCS 5/11-13-15 violates the due process clause of the 14th and 5th
Amendments of the United States Constitution and is, therefore, unconstitutional
both on its face and as appliedl

(3)

Whether 65 ILCS 5/11-13-15 is unconstitutionally vague when it is necessary to
and utilize another statute in order to determine the “prohibited
refer to
conduct” ?

8

Whether 65 ILCS 5/11-13-15 is unconstitutionally vague when it is necessary to
refer to and utilize another statute in order to determine the “prohibited
conduct and is, therefore, unconstitutional both on its face and as applied!

In her final order entered on March 26, 2018 the trial court did not address the
Defendants’ unconstitutional defense at all. (APPENDIX A)

This is of

maximum importance because if a statute is unconstitutional, nothing else really

matters.
The general rule is that an unconstitutional statute, though having the form and
the name of law, is in reality no law, but is wholly void and ineffective for any
purpose since unconstitutionality dates from the time of its enactment and not
merely from the date of the decision so branding it; an unconstitutional law, in legal
contemplation, is as inoperative as if it had never been passed... An
unconstitutional law is void.

(16 Am. Jur. 2d, Sec. 178)

In Paragraph 12 of her order (APPENDIX A), the trial judge simply wrote as
follows'12. On June 28, 2017, Defendants filed their motions to declare 65
ILCS 5/11-13-15 unconstitutional. The motions were first continued due
to Defendants’ failure to serve notice on the Attorney General as required
by Supreme Court Ride 19 and the motions were subsequently denied on
July 20, 2017. (APPENDIX A)
The trial court judge did not address “whf she dismissed the motions pertaining to
the unconstitutionality of 65 ILCS 65 ILCS 5/1 M3-15. (APPENDIX A)

9

The ruling from the Second District, Illinois Appellate Court does not address
unconstitutionality and, of course, the Illinois Supreme Court did not address
unconstitutionality. (APPENDIX B and C)
The Illinois Supreme Court simply denied the Petitioners’ motion for leave to file
a motion for reconsideration of the order denying petition for leave to appeal on
April 7, 2020. (APPENDIX C)
The Defendants’ unconstitutional issue should have definitely been covered in the
trial judge’s final order and by the Illinois Appellate Court, Second District.

REASONS FOR GRANTING THE PETITION

10

This petition should be granted because no person should ever be subject to an
unconstitutional statute or law.
The general rule is that an unconstitutional statute, though having the form and
the name of law, is in reality no law, but is wholly void and ineffective for any
purpose since unconstitutionality dates from the time of its enactment and not
merely from the date of the decision so branding it> an unconstitutional law, in legal
contemplation, is as inoperative as if it had never been passed ... An
unconstitutional law is void. (16 Am. Jur. 2d, Sec. 178)

In the case at bar, the underlying principle is that no man shall be held criminally
responsible for conduct which he could not reasonably understand to be proscribed.
65 ILCS 5/11-13-15 is a State of Illinois statute covering the property
maintenance of every homeowner in the State of Illinois. (APPENDIX E)

It is an unconstitutional and unnecessary statute.
The void for vagueness doctrine is a constitutional rule.

The courts have generally

determined that vaeue laws deprive citizens of their rights without fair process\
thus violating due process.
A criminal statute or quasi-criminal statute which either forbids or requires the
doing of an act in terms so vague that men of common intelligence must guess at its

11

meaning and differ as to its application lacks the first essential of due process of
law. dorm ally v. General Const. Co..

269 U.S. 385 (1926)

Void for vagueness simply means that criminal responsibility should not attach
where one could not reasonably understand that his contemplated conduct is
proscribed. United States v. Harriss, 347 U. S. 612, 617 (1954).
The underlying principle is that no man shall be held criminally responsible for
conduct which he could not reasonably understand to be proscribed.

Connallv v.

General Const. Co.. 269 U.S. 385 (1926)

THTS CASE HAS BROAD APPLICATION
It is undisputed that the Plaintiff is alleging that the Defendants violated a city
property maintenance ordinance.

This case has broad application to the entire State of Illinois and anyone who
owns property within the State of Illinois. The issue in this case affects every
homeowner in the State of Illinois; the maintenance of their real property.
Maintenance of real property is an ongoing responsibility of every homeowner.

Property maintenance refers to the overall upkeep of real property and land.

This case has broad application to the entire State of Illinois.
12

When one enters a courtroom, it is not wise to leave one’s common sense at the door.
No homeowner in the State of Illinois or any other state, for that matter, is expected
to maintain their property without any violation of the city’s property maintenance
code at all times.

If this contention is accepted, then every homeowner in the State of Illinois would
aiimmarilv lose a lawsuit filed against them pursuant to 65 ILCS 5/11-13-15.

There is absolutely no way that the State of Illinois INTENDED such an unfair
and absurd result.

Unlike the City of Waukegan property maintenance code, 65 ILCS 5/11-13-15 does
not mandate that a homeowner be given notice of any alleged violation and a
reasonable opportunity to correct it by code officials before action is taken.
(APPENDIX D and E) 65 ILCS 5/11-13-15 simply requires violation of the
ordinance and the Plaintiff prevails and is awarded attorney fees.

The underlying principle is that no man shall be held criminally responsible for
conduct which he could not reasonably understand to be proscribed. Id.

13

A criminal statute or quasi-criminal statute which either forbids or requires the
doing of an act in terms so vague that men of common intelligence must guess at its
meaning and differ as to its application lacks the first essential of due process of
law. normally v. General Const. Co.. 269 U.S. 385 (1926).
A void for vagueness due process challenge is likely to be successful where the
terms of a statute threatens a constitutionally protected right and where the
conduct at issue in a particular case is not clearly proscribed.

In addition, where

the conduct in question is at the “margins” ofan unclear statute, the statute will
likely be struck down, “as applied”.

United States v. National Dairy Com.. 372

U.S. 29 (1963).
In the case at bar,

65 ILCS 5/11-13-15 clearly threatens a constitutionally

protected right and the conduct at issue is not clearlyproscribed.
Roots of the vagueness doctrine extend into the due process clauses in the Fifth and
Fourteenth Amendments to the United States Constitution. (APPENDIX F)

The

courts have generally determined that vaerue laws deprive citizens of their rights
without fair process, thus violating due process.

65 ILCS 5/11-13-15 reads as follows:
(65 ILCS 5/11-13-15) (from Ch. 24, par. 11-13-15)
Sec. 11-13-15. In case anv building or structure,
innhiding fixtures, is constructed, reconstructed, altered,
repaired, converted, or maintained, or anv building or
14

structure incilndinpr fixtures. or land, is used in violation
nf an ordinance nr ordinances adopted under Division 13,
,97 or 31.1 nftha TUinnis Municipal Code, or ofany
nrrfinanne or other regulation made under the authority
conferred thereby (EmphasisAdded), the proper local
authorities of the municipality, or any owner or tenant of
real property, within 1200 feet in any direction of the
property on which the building or structure in question is
located who shows that his property or person will be
substantially affected by the alleged violation, in addition
to other remedies, may institute any appropriate action
or proceeding (l) to prevent the unlawful construction,
reconstruction, alteration, repair, conversion,
maintenance, or use, (2) to prevent the occupancy of the
building, structure, or land, (3) to prevent any illegal act,
conduct, business, or use in or about the premises, or (4)
to restrain, correct, or abate the violation. When any such
action is instituted by an owner or tenant, notice of such
action shall be served upon the municipality at the time
suit is begun, by serving a copy of the complaint on the
chief executive officer of the municipality, no such action
may be maintained until such notice has been given.
In any action or proceeding for a purpose mentioned in
this section, the court with jurisdiction of such action or
proceeding has the power and in its discretion may issue
a restraining order, or a preliminary injunction, as well
as a permanent injunction, upon such terms and under
such conditions as will do justice and enforce the
purposes set forth above.
If an owner or tenant files suit hereunder and the
court finds that the defendant has engaged in any of the
foregoing prohibited activities, then the court shall allow
the plaintiff a reasonable sum of money for the services of
the plaintiff's attorney. This allowance shall be a part of
the costs of the litigation assessed against the defendant,
and may be recovered as such.
An owner or tenant need not prove any specific, special
or unique damages to himself or his property or any
adverse effect upon his property from the alleged
15

violation in order to maintain a suit under the foregoing
provisions.
(Source: p.A. 80-419.)
The conduct at issue is not dearly proscribed

65 ILCS 5/11-13-15 clearly threatens a constitutionallyprotected right in the case
at bar *

the right to reasonably understand that contemplated conduct is

proscribed.
65 ILCS 5/11-13-15 contains a plethora of unconstitutionally vague language.
The following constitutionally vague language in 65 ILCS 5/11-13-15 determines
what conduct is proscribed.'

“In case any building or structure, including fixtures, is constructed,
reconstructed, altered, repaired, converted, or maintained, or any building or
structure, including fixtures, or land, is used in violation ofan ordinance or
ordinances adopted under Division 13, 31 or 31.1 of the Illinois Municipal
Code, or ofany ordinance or other regulation made under the authority
conferred thereby”

(APPENDIX E)

This language is clearly unconstitutionally vague. In order for the plaintiff/

in

order for the defendant ', and in order for the judge to determine the proscribed
conduct, they must first examine the Illinois Municipal Code and refer to its table
16

ofcontents.

The proscribed conduct “must be included

within the statute

and the Defendants should not be required to refer to and utilize other parts of the
niinois Municipl Code.
Following is the relevant, partial Table of Contents from the Illinois Municipal
Code“PARTIAL' TABLE OF CONTENTS
MUNICIPALITIES
(65 ILCS 5/) Illinois Municipal Code.

Art 11 nrec Div 11 - Planning. Zoning and Urban Rehabilitation
Division 11 - Urban Rehabilitation
Division 11.1 - Fair Housing
Division 11.2 - Improvement of Group Relations
Division 12 - Plan Commissions
Division 12.1 - Revenue Bonds for Conservation Plan Areas
Division 13 -Zoning
Division 14 - Set-Back Lines
Division 15 - Approval of Mans And Plats
Division 15.1 - Annexation Agreements
Division 15.2 - Annexation; Drainage Districts
Division 15.3 - Wind Farms
Division 15.4 - Municipal Urban Agricultural Areas

Art 11 nrec Div 30 - Control Over Building and Construction
Division 30 - General Regulatory Powers
Division 31 - Unsafe Property
Division 31.1 - Building Code Violations
Division 32 - Regulation of Heating, Air Conditioning and Refrigeration
Installations
Division 33 - Registration of Electrical Contractors
Division 34 - Steam Boiler Inspection and Operator Licensing
Division 35 - Board of Plumbing Examiners in Municipalities Of 500.000 Or More
Division 36 - Licensing of Mason Contractors in Municipalities of 500.000 or More
17

)
'
<
?

"s

Division 37 - Inspection of Electrical Equipment
Division 3ft - Insnection of Lodging House Plans
Division 39 - Recording of Building Permits
Division 39.1 - Community Planning and Development

In order to find Division 13 in the Illinois Municipal Code, you must first find: Art
11 pree
j)jy ii — Planning, Zoning and Uran Rehaihtation in the table of contents and
then scroll down to Division 13, Zoning

(See “Partial” Table of Contents above)

In order to find Division 31 of the Illinois Municipal Code, you must first locate Art
11 prec
Div 30 - Control Over Building and Construction, and then scroll down to
Division 31, Unsafe Property. (See “Partial” Table of Contents above)

In order to find Division 31.1 of the Illinois Municipal Code, you must first locate
Art 11 prec Div 30 - Control Over Building and Construction, and then scroll down
to Division 31.1, Building Code Violations. (See “Partial” Table of Contents
above)

18

There is a total of 38 pages to be reviewed, (APPENDIX G, H, I) . Division 13
"Zoning” consists of 18 pagesm (APPENDIX G); Division 31, “Unsafe Property”
consists of 14 pages (APPENDIX H) and Division 31.1, “Building Code Violations”
consists of 6 pages (APPENDIX I). This is a total of 38 pages to be reviewed.
Can anyone imagine a Plaintiff or Defendant or a Judge determining what conduct
is prohibited in the case at bar?

A plaintiff, defendant and judge has to go through all of this to find out what
conduct is proscribed by 65 ILCS 5/ll'13"15.
In addition, the Plaintiff, Defendant and Judge must locate all of the ordinances
adopted under Divisions 13, 31, and 31.1 and other regulations made under the
authority conferred thereby in their search for the prohibited conduct. (APPENDIX
E)
A criminal statute or quasi criminal statute which either forbids or requires the
doing of an act in terms so vague that men of common intelligence must guess at its
meaning and differ as to its application lacks the first essential of due process of
law. Connally v. General Const. Co., 269 U.S. 385 (1926).
It is very difficult if not impossible for the plaintiff, defendant or judge to
determine the prohibited conduct in this case.
Just laws and onnstitutional laws are the foundation of our legal system.
19

We, the people, DEPEND on the United States Supreme Court for justice.

This petition should be granted because no person should ever be subject to an
unconstitutional statute or law.

20

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Ethel J. Ke:

Date: September 2, 2020

